No. ________________

IN THE SUPREME COURT OF THE UNITED STATES
CEDRIN FARODD CARTER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Cedrin Farodd Carter respectfully moves for leave to file the
attached petition for writ of certiorari without prepayment of costs and to proceed in
forma pauperis in accordance with Supreme Court Rule 39 and 18 U.S.C. §
3006A(d)(7).
A United States Magistrate Judge found Mr. Carter financially unable to
obtain counsel and appointed the Federal Public Defender for the Northern District
of Alabama to represent Mr. Carter under to 18 U.S.C. § 3006A.
In reliance upon Supreme Court Rule 39.1 and 18 U.S.C. § 3006A(d)(7), Mr.
Carter has not attached the affidavit that would otherwise be required by 28 U.S.C.
§ 1915(a) and the rules of this Court.
Respectfully submitted this 17th day of September, 2021.
KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
DEANNA LEE OSWALD
Assistant Federal Public Defender

TOBIE J. SMITH
Appellate Attorney
Federal Public Defender’s Office
Northern District of Alabama
505 20th Street North, Suite 1425
Birmingham, Alabama 35203
(205) 208-7170
Tobie_Smith@fd.org

